U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Rickmon, No. 20-733
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 20,
2020. The government’s response is now due, after one extension, on January 27, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 26, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0733
RICKMON, TERRILL A., SR.
USA

LUKE VERRILL CASS
QUARLES & BRADY LLP
1701 PENNSYLVANIA AVENUE
SUITE 700
WASHINGTON, DC 20004
202-372-9600
LUKE.CASS@QUARLES.COM

